BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief of Amicus Curiae National Association
of Scholars in Support of Petitioner in 20-1199,
Students for Fair Admissions, Inc. v. President &
Fellows of Harvard College, was sent via Three Day
Service to the U.S. Supreme Court, and via Three Day
and e-mail service to the following parties listed below,
this 29th day of March, 2021:
William Spencer Consovoy
Consovoy McCarthy PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com
Counsel for Petitioner
Seth P. Waxman
Wilmer Cutler Pickering Hale & Dorr LLP
1875 Pennsylvania Ave, NW
Washington, DC 20006
(202) 663-6800
Seth.Waxman@wilmerhale.com
Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

I Franklin Square

1300 I Street, NW, Suite 400E
Washington, DC 20005

Dennis J. Saffran
Counsel of Record
38-18 West Drive
Douglaston, NY 11363
(718) 428-7156
dj saffranlaw@gmail.com

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 29, 2021.

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

"}}t,/0,v?t lt-CZ 1 (10 J--r

(YktcJ. ~

Notary Public
[seal]

